Account Opening Disclosures
Interest Rates and Interest Charges

0.00% Introductory APR for seven cycles
Annual Percentage Rate
(APR) for Purchases

10.20% to 15.20% for Visa Platinum or
14.20% to 19.20% for Visa Platinum Rewards based on

After that your APR will be

creditworthiness. This APR will vary with the market based on the Prime Rate

2.99% Introductory APR for twelve cycles
APR for Balance Transfers

10.20% to 15.20% for Visa Platinum or
14.20% to 19.20% for Visa Platinum Rewards based on

After that your APR will be

creditworthiness. This APR will vary with the market based on the Prime Rate
APR for Cash or ATM
Advances
Penalty APR and When it
Applies
Paying Interest

10.20% to 15.20% for Visa Platinum or 14.20% to 19.20%
for Visa Platinum Rewards. This APR will vary with the market based on the Prime
Rate
None

Minimum Interest Charge

Your due date is 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
We will begin charging interest on Cash or ATM advances and Balance Transfers on
the transaction date.
If you are charged interest, the charge will be no less than $1.00

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
•

Purchases

None

•

Balance Transfers Fee

Either $10.00 or 4% of the amount of each balance transfer, whichever is greater.

•

Cash or ATM Advance
Fee

Either $10.00 or 4% of the amount of each cash advance, whichever is greater.

•

Foreign Transaction Fee

1% of the transaction amount in U.S. dollars.

Penalty Fees
•

Late Payment Fee

Up to $25

•

Over-the-Credit Limit Fee

None

•

Returned Payment Fee

Up to $35

How We Will Calculate Your Balance: We use a method called "Average Daily Balance (including new purchases)."
See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
The information stated above is updated regularly, but may have changed since the last update. To obtain information
about changes in the above disclosures, contact us at St. Mary’s Bank, PO Box 84032, Columbus, GA 31908-4032
1
1/29/16
or 1-866-686-5210. Credit Cards are issued by St. Mary’s Bank. Member NCUA

®

St. Mary’s Bank

CONSUMER VISA CREDIT CARD AGREEMENT & DISCLOSURE
STATEMENT
®

This Agreement applies to the VISA Credit Card Account established
for you by St. Mary’s Bank. Any Card issued to you by us remains our
property and must be returned to us or to anyone we designate or
confirmed by you as destroyed, upon request. Retaining, signing or
using, or permitting others to use, the Card or Credit Account is the
same as signing this Agreement, and means you agree to be bound by
the terms of this Agreement. All capitalized terms used in this
Agreement but not otherwise defined shall have the meanings set forth
below in the paragraph below with the heading “Definitions.” Unless
otherwise specifically stated herein, all dollar amounts set forth in this
Agreement refer to U.S. Dollars.
Definitions. In addition to other terms that may be defined in this
Agreement, the following terms when used in this Agreement have the
following definitions:
• “Credit Account” means the open-end revolving credit account
established pursuant to your Application and this Agreement to
which charges are posted based on use of a Card, information from
a Card or any other means by which the Credit Account may be
accessed in the future.
• “Agreement” means this Credit Card Agreement and Disclosure
Statement, which includes the disclosures and other information
provided on the Card Mailer, as well as the Application.
• “APR” means the Annual Percentage Rate corresponding to the
MPR (as defined below) described in the “Interest Charges” section
below.
• “Application” means the application for credit you signed or
otherwise submitted to request us to extend credit to you under the
Credit Account.
• “Authorized User” means any person you permit to use the Credit
Account or who has apparent authority to use the Credit Account.
®
• “Card” means each VISA credit card issued to you or, at your
request, to an Authorized User by us for use with the Credit Account.
• “Card Mailer” means the folder sent with each Card.
• “Cash Advance Limit” means that portion of your Credit Limit that is
available to be used for Cash Advances.
• “Credit Limit” means the total dollar amount of credit available to you
under the terms of this Agreement.
• “We”, “us” and “our” refer to St. Mary’s Bank with a principal address
in the State of New Hampshire at 48 Perimeter Road Manchester,
NH 03103.
• “You” and “your” refer to each person who signed the Application or
who otherwise agreed to be responsible for the Credit Account.
Using Your Credit Account. You may use your Credit Account as
follows: (1) “Purchases”: you may purchase or lease goods and services
from any merchant who honors the Card; (2) "Cash Advances": you may
obtain cash or cash equivalents (a) from us or from any financial
institution that honors the Card, (b) from an automatic teller machine that
accepts the Card, (c) by purchasing items that may be traded right away
for cash, including, but not limited to, money orders, travelers checks,

2

lottery tickets, casino chips, vouchers redeemable for cash, or racetrack
wagers, provided the issuer of such items honors the Card, and (d) by
making tax or other payments; and (3) "Balance Transfers": you may
request us to transfer to your Credit Account a balance that you owe to
another creditor and, if we approve your request, we will pay the other
creditor directly. We are not responsible for any person or entity refusing
to accept the Card for Purchases or Cash Advances. We may limit the
number or dollar amount of Purchases, Cash Advances and/or Balance
Transfers that may be made or obtained with a Card or the Credit
Account. Neither we nor our agents will be responsible or have any
liability for refusing to authorize any transaction, even if you have credit
available under your Credit Limit.
Illegal, Online Gambling and other Prohibited Transactions: Your
Credit Account may not be used for business or commercial purposes.
You further agree not to use your Credit Account for any transaction that
would violate any applicable law in the State of New Hampshire, your
state of residence or any other jurisdiction affected by the transaction.
You agree that it is your obligation to determine the legality of a
transaction before you enter into such transaction. You also agree not to
use your Credit Account for any Internet or online gambling transaction,
even if it would be considered legal in any of the jurisdictions referenced
above. Charges to your Credit Account will not be permitted in any
country or territory, or with any individual or entity that is subject to U. S.
Department of the Treasury's Office of Foreign Assets Control (OFAC)
economic sanctions. We may refuse to authorize any transaction
referred to in this section. To the fullest extent permitted by law, you
agree to pay for any Card transaction, even if that transaction is
determined to be illegal or prohibited under this paragraph.
Promise to Pay. You promise to pay us for all Purchases, Cash
Advances and Balance Transfers on your Credit Account, whether made
by you or anyone whom you allow to use your Credit Account or you
allow access to your Card. You also agree to pay any and all Interest
Charges (as defined below), fees and all other amounts owed under this
Agreement. If you have a joint Credit Account, each of you is jointly and
severally responsible for all amounts owed under this Agreement. Any
notice received from any individual responsible on the Credit Account
shall be deemed to apply to all responsible parties. If we receive
conflicting notices from responsible parties, we may choose which one to
honor. We will not be liable to you or anyone else because we choose to
honor a notice or request from any one of you.
Refunds and Adjustments. You agree that, for any refund, adjustment,
or credit allowed by any merchant or other person or entity, you will not
accept cash, but only credit to the Credit Account, which will appear on
your monthly billing statement described below.
Monthly Billing Statements We will send you a billing statement at the
end of each monthly billing cycle if the Credit Account then has a credit
or debit balance of more than One Dollar ($1.00), a finance charge has
been imposed, or we are required to do so by applicable law. You agree
to promptly review each billing statement, and notify us about any errors
or questions you have as provided in “Your Billing Rights” Notice
attached hereto and incorporated herein as Exhibit A (the “Notice”). If
you do not provide us timely notification as provided in the Notice, we

3

will assume that you agree with all information in the billing statement
and that such information is correct. Among other information, each
statement will show all Purchases, Cash Advances, Balance Transfers,
Interest Charges, fees and any other debits or credits to the Credit
Account during that billing cycle, along with the unpaid balance at the
end of that billing cycle (the “New Balance”), the minimum amount of
your next payment (the “Minimum Payment Due”), and when your next
payment is due (the “Payment Due Date”).
Minimum Payment Due. If the New Balance shown on the statement
for any billing cycle is less than Thirty Dollars ($30.00), the Minimum
Payment Due for that cycle will equal the New Balance. If the New
Balance for any billing cycle equals or exceeds Thirty Dollars ($30.00),
the Minimum Payment Due for that cycle will be: (1) the greater of: (A)
three percent (3%) of the New Balance, (B) Thirty Dollars ($30.00), or
(C) the sum of any unpaid Interest Charges, any unpaid fees, and one
percent (1%) of the New Balance; plus (2) any unpaid Minimum
Payments Due from earlier billing cycles and any amount of your New
Balance that exceeds your Credit Limit or Cash Advance Limit.
Payments must be made in U.S. dollars drawn on a U.S. Bank. You may
pay more than the Minimum Payment Due at any time. You will not owe
us any additional charge for any payment made prior to the Payment
Due Date. If you pay more than the Minimum Payment Due in one billing
cycle, you still have to pay the full Minimum Payment Due in the future
cycles. You cannot increase your available credit by paying more than
the unpaid balance on the Credit Account.
Payments on the Credit Account. Each payment required under this
Agreement must be made on or before the Payment Due Date shown on
the monthly billing statement. To ensure prompt processing, you must
pay us in U.S. dollars, by mailing your personal check or money order,
along with the payment stub from current monthly billing statement, to
the address shown on that statement. Do not send cash. If you do not
follow these instructions, this may delay credit of the payment. Provided
the requirements of this paragraph are followed, all payments on the
Credit Account received by 5:00 p.m. during our normal business day at
the address shown on your monthly billing statement are considered to
have been made on the date received at that address, including
payments made in person at St. Mary’s Bank branch locations. To the
fullest extent allowed by applicable law, we may accept payments
marked "payment in full" (or words of similar intent) without losing any of
our rights to collect the full balance due under the Credit Account and
this Agreement. If you pay us with a check or similar instrument marked
with “payment in full” or similar words, you must send it to the address
set forth in the Notice. Subject to any restrictions under applicable law:
(1) the words “payment in full” or similar words will have no effect; and
(2) we can take disputed payments without giving up any of our rights to
collect any amounts remaining outstanding on the Credit Account
pursuant to this Agreement. We will apply your payments to the unpaid
balance of the Credit Account in the order and manner we decide, unless
restricted by an applicable law. After receipt of payments on the Credit
Account, St. Mary’s Bank may withhold the release of available credit
equal to the amount of the payment for a period of time to ensure that
sufficient funds are available.
Disputed Payments. If you dispute any amount we say you owe under

4

this Agreement, you must notify us in writing at St. Mary’s Bank Credit
Card Services, P.O Box 84032, Columbus, Georgia 31908-4032 in
accordance with the requirements set forth in the Notice.
Payment Holidays. At our option we may permit you from time to time
to skip making the Minimum Payment Due for a specified billing cycle
(referred to as a "Payment Holiday"). Even if you accept such a Payment
Holiday, we will continue to assess Interest Charges on the unpaid
balances of the Credit Account. Any Payment Holiday we permit will not
otherwise affect the terms of this Agreement.
Credit Limit; Cash Advance Limit. You agree not to use or permit
others to use the Card or the Credit Account if such use would cause
either (i) the balance of the Credit Account to exceed the Credit Limit we
set from time to time or (ii) the balance of the outstanding Cash
Advances to exceed the Cash Advance Limit. The initial Credit Limit and
Cash Advance Limit for the Credit Account are shown on the Card
Mailer and will also be disclosed on each monthly billing statement for
the Credit Account. We may, at our option, extend credit under the
Credit Account which exceeds the Credit Limit or the Cash Advance
Limit. If we do, you agree to pay the excess which we advanced to you
over either of the applicable limits on or before your next Payment Due
Date. We are not obligated to allow any Purchase, Cash Advance or
Balance Transfer which would cause your Credit Account balance or
Cash Advance Balance to exceed your Credit Limit or Cash Advance
Limit, as applicable, and if we do, we are not obligated to do so at a later
time. We may increase or decrease your Credit Limit and/or Cash
Advance Limit at any time, subject to any restrictions of applicable law.
We may terminate your ability to obtain additional credit under this
Agreement if you exceed the Credit Limit or the Cash Advance Limit.
Interest Charges. Each billing cycle, we will charge interest to you
based on the average daily balance for each type of transaction on your
Credit Account (“Interest Charges”). By type of transaction, we mean
Purchases, Cash Advances, Balance Transfers and any transactions
subject to a special offer APR. To compute the Interest Charges owed on
your Credit Account for each billing cycle, we first calculate the average
daily balance for each type of transaction. Next, we multiply the average
daily balance for that type of transaction by the applicable interest rate.
After computing the Interest Charge for each type of transaction, we add
together these Interest Charges to determine the total Interest Charges
on your Credit Account for the billing cycle. If you are charged interest for
any billing cycle, the Interest Charge will be no less than One Dollar
($1.00).
Average Daily Balances Used to Compute Interest. To get the
average daily balance for each type of transaction on your Credit
Account: (1) we calculate a daily balance for each day in the current
billing cycle; (2) we add all the daily balances together; and (3) we divide
the sum of the daily balances by the number of days in the current billing
cycle. To calculate the daily balance for each type of transaction for each
day in the current billing cycle, we take the beginning balance for that
type of transaction on that day, add any new transactions and applicable
fees or other charges, and subtract any applicable payments and credits.
The following fees and charges will be added to the daily balance for
Purchases on the date each is posted to the Credit Account: Annual Fee,

5

Foreign Transaction Fee, Late Fee, Returned Payment Fee, Expedited
Delivery Fee, Pay-by-Phone Fee, and any amounts permitted under the
section titled “Attorney’s Fees and Other Collection Costs” below. Any
Cash Advance Fee will be added to the daily balance for Cash Advances
on the date it is posted to the Credit Account. Any Balance Transfer Fee
will be added to the daily balance for Balance Transfers on the date it is
posted to the Credit Account. If any daily balance is less than zero we
treat it as zero.
Interest Rates. We calculate how much interest you owe each billing
cycle by applying a monthly periodic rate (an “MPR”) to the average daily
balance for Purchases, Cash Advances, Balance Transfers and any
transactions subject to a special offer APR. We get each MPR by
dividing the APR for that transaction type by twelve (12). The interest
rates that apply to your Credit Account are shown on the Card Mailer and
each monthly billing statement. Except for any introductory or other
special offer APR, each APR is a variable rate equal to the Prime Rate
plus any margin shown on the Card Mailer or in the special offer. The
“Prime Rate” is the U.S. Prime Rate published in The Wall Street Journal
on the last business day of the month. An increase or decrease in the
Prime Rate will cause a corresponding increase or decrease in your
variable APRs on the first day of your billing cycle that begins in the
month immediately following the change in the index. If your APRs
increase, the amount of interest you will owe and the Minimum Payment
Due may increase.
Grace Period/Paying Interest. Your Payment Due Date is at least
twenty-five (25) days after the close of each billing cycle. We will not
charge you any interest on Purchases if you pay your entire New
Balance by the Payment Due Date each month. No Interest Charge will
be imposed on new Purchases posted to your Credit Account during a
billing cycle if the outstanding New Balance for the preceding billing cycle
had been paid in full and credited by the "Payment Due Date" for that
billing cycle. However, if (1) the outstanding New Balance for the
preceding billing cycle has been paid in full and credited by the Payment
Due Date for that billing cycle, (2) a Purchase is posted to the Credit
Account during the current billing cycle, and (3) the New Balance of the
current billing cycle is not paid in full and credited by the Payment Due
Date for the current billing cycle, an Interest Charge will accrue on the
Purchase from the first day of the billing cycle which follows the current
billing cycle. For any billing cycle in which the Credit Account has an
outstanding New Balance which was not paid and credited by the
Payment Due Date for the preceding billing cycle, we will begin charging
interest on all Purchases, Cash Advances and Balance Transfers on the
transaction date.
Special Offers: We may make a special offer to you. For example, we
may offer a reduced interest rate. Such offers may apply to all
transactions or balances on your Credit Account, or only to some
transactions or balances. We will tell you what terms of the special offer
differ from the terms of this Agreement. Except as we tell you in a special
offer, the rest of this Agreement will still apply to your Credit Account.
Fees. You agree to pay the following fees, as applicable:
Annual Fee. If this fee applies to your Credit Account, the amount of the

6

fee is shown on the Card Mailer. This fee will be charged to your Credit
Account when we issue the Card, and annually at the end of the month
that includes the anniversary date of the opening of the Credit Account.
Payment of the fee is a condition for maintaining the Credit Account. The
fee will be charged regardless of whether you use the Credit Account,
and is not refundable even if the Credit Account is closed for any reason
by either you or us.
Transaction Fees:
• Cash or ATM Advance Fee. A fee of $10 or four percent (4%) of the
amount of each Cash Advance (whichever is greater). This fee is in
addition to the Interest Charge which will accrue on the Cash
Advance.
• Balance Transfer Fee. A fee of $10 or four percent (4%) of the
amount of each Balance Transfer (whichever is greater). This fee is
in addition to the Interest Charge which will accrue on the Balance
Transfer. Fee waived for first 12 billing cycles of the introductory
period.
• Foreign Transaction Fee. One percent (1%) of the U.S. dollar
amount of any transaction made (1) in a foreign currency, (2) outside
of the United States, or (3) with a foreign merchant, even if that
transaction is made in U.S. dollars. We may charge this fee for each
transaction (including returns and refunds) at the time the
transaction is posted to your Account.
Penalty Fees:
• Late Payment Fee. A fee if we do not receive at least the Minimum
Payment Due by the Payment Due Date (or the next business day if
the Payment Due Date falls on a Saturday, Sunday or holiday). For
any late payment, this fee will be $25 but never more than the full
amount of the Minimum Payment Due (as shown on the billing
statement) that was due immediately before the fee is assessed,
rounded up to the nearest dollar.
• Returned Payment Fee. A fee if a check or similar instrument or any
debit for payment on your Account is returned unpaid for any
reason. The amount of this fee will be up to $35 or the full amount of
the Minimum Payment Due that was due immediately before the
payment was returned, rounded up to the nearest dollar, whichever
is less.
• Returned Convenience Check Fee: A fee of $25 will be charged to
your account if a Convenience Check written on your account is
declined and returned to the payee.
Other Fees:
• Pay-by-Phone Fee. A fee of $10 if you request us to electronically
debit your deposit or other account for a payment on the Account,
and we honor your request.
• Expedited Delivery Service Fee. Except as provided below, a $30
fee if you request and we agree to arrange for expedited delivery of
any Card to you (for example, by an overnight delivery service).
• Convenience Check Stop Payment Fee: A Fee of $25 per
occurrence if you request us to place a Stop Payment on
Convenience Checks drawn against your Account.
• Document Fee: A Fee of $10 per item if you request us to make a
copy. Examples would be, Statements, Sales Drafts, Balance
Transfers, Payment Checks, Convenience Checks.
Transactions Made in Foreign Currencies. If a transaction is made in

7

a foreign currency, the company processing that transaction will convert
the transaction into a U.S. dollar amount, and we will charge your Credit
Account for the converted amount. The currency exchange will be done
by a method and at a rate determined by the company that processes
the transaction. The exchange rate in effect on the processing date may
be different from the exchange rate in effect on the transaction date or
the posting date. If you make a return or get a refund, the same
procedures shall apply. The amount of any return or refund credit may
be different from the amount of the original transaction because the
exchange rate may change from day to day.
Termination. We may reduce the Credit Limit or terminate your ability to
receive additional credit under this Agreement at any time without notice,
in accordance with applicable law. You may terminate your ability to
receive additional credit under this Agreement by giving us notice of
termination and returning to us or confirming in writing to us destruction
of all Cards. Termination by you will be effective after we have received
your written notice and had a reasonable opportunity to act on it. If your
ability to receive additional credit under this Agreement is terminated,
either by you or by us, this Agreement is not terminated. Your obligations
and our rights under this Agreement shall remain effective until all
amounts due under this Agreement have been paid in full. If no Default
has occurred at the time of termination, you may pay off any balance
under the terms of this Agreement that apply at that time.
Default. You will be in default with no further notice from St. Mary’s Bank
under this Agreement upon the occurrence of any of the following
events: (1) you fail to make any payment required under this Agreement
when due; (2) you fail to perform or abide by any of your agreements or
obligations under this Agreement or any other loan agreement you have
with us or with any other creditor; (3) you become insolvent (meaning
your liabilities exceed your assets or you are unable to pay your debts as
they become due); (4) any action is taken by or against you under any
bankruptcy or insolvency laws; (5) any attachment or garnishment
proceedings are initiated against you; (6) you die or are declared
incompetent; (7) you withdraw or transfer from the Deposit Account any
funds in which St. Mary’s Bank holds a Security Interest under this
Agreement; (8) you have given the Bank false or misleading information
or misrepresentations; (9) we, in good faith, believe the prospect of your
payment or performance under this Agreement is impaired; or (10) you
fail or refuse to provide current financial information to us when we
request it (in each instance a “Default”). Upon the occurrence of any
Default, all amounts you owe under this Agreement will become
immediately due and payable in full. The Bank may also exercise all the
rights of an owner of the Deposit Account. You must also return to us or
confirm in writing to us destruction of all Cards issued to you in
connection with the Credit Account. The occurrence of a Default shall not
release you from any obligation you have incurred under this Agreement.
Following the occurrence of a Default, your obligations and our rights
under this Agreement shall remain effective until all amounts due under
this Agreement have been paid in full.
Attorney’s Fees and Other Collection Costs. You agree to pay the
costs we incur following the occurrence of a Default including any
reasonable out-of-pocket attorney’s fees incurred to collect amounts you
owe under this Agreement. We will not charge you for our collection

8

costs if you owe us $300 or less or an applicable law says we may not.
Any amounts you owe for these collection costs may be added to the
outstanding balance of the Credit Account, and interest may be charged
on these costs at the APR applicable to Purchases.
Changing this Agreement. We reserve the right to amend this
Agreement at any time by adding, deleting or changing provisions of this
Agreement in compliance with applicable laws. We will tell you when any
change will be effective and how it will apply to your Credit Account. All
amendments will comply with the applicable notice requirements of
applicable laws in effect at that time. If an amendment gives you the
opportunity to reject the change, and if you reject the change in the
manner provided in such amendment, we may terminate your rights
under this Agreement and may require you to return the Card as a
condition of your rejection. We may replace your Card with another Card
at any time. You may not change this Agreement unless we agree in
writing to the change.
Governing Law; Severability. This Agreement and your Credit Account
will be governed by (1) applicable federal law, and (2) to the extent not
preempted by federal law, the laws of the State of New Hampshire,
without regard to its conflicts of law provisions. We accepted this
Agreement in New Hampshire. If any provision of this Agreement is
found to be invalid by a court of competent jurisdiction and venue, you
agree the provision will be viewed as if it was amended to the extent
necessary to comply with the law. If that is not possible, then only the
provision that conflicts with the law will be deleted. The remaining
provisions of this Agreement will remain effective.
Credit Reports. You agree that we may obtain consumer credit reports
from one or more credit reporting agencies or others in connection with
opening or maintaining the Credit Account, determining the Credit Limit
and Cash Advance Limit, or making any extension of credit to you under
the Credit Account. We may also ask you for additional information in
connection with the Credit Account and request credit reports to verify
your current credit standing. You agree that we may release information
to others, such as credit reporting agencies, regarding the status and
history of the Credit Account. However, we are not obligated to release
any such information unless required by law. If you believe inaccurate
information about you or your Credit Account has been furnished to a
credit reporting agency, please write to us at St. Mary’s Bank Credit Card
Services, P.O. Box 84032, Columbus, Georgia 31908-4032, including
your name, address, phone number, and Credit Account number, and a
detailed explanation of the information you believe has been reported in
error.
Notices. Any notices given under this Agreement or relating to the Credit
Account will be effective only if given in writing to us at St. Mary’s Bank
Credit Card Services, P.O. Box 84032, Columbus, Georgia 31908-4032,
and to you at your last address shown on our records. You agree to
notify us immediately if your address changes from that shown on the
Application you submitted in connection with opening the Credit Account.
Liability for Unauthorized Use. If any Card is lost or stolen or the
Credit Account otherwise may be used without your authorization, you
must notify us immediately by calling us at 1.866.686.5210, or writing us

9

at St. Mary’s Bank Credit Card Services, P.O Box 84032, Columbus,
Georgia 31908-4032. You will not be liable for any unauthorized use that
occurs after you notify us. You may, however, be liable for unauthorized
use that occurs before your notice to us. In any case, your liability will not
exceed Fifty Dollars ($50.00).

YOUR BILLING RIGHTS •
KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act
What to do if you find a mistake on your statement.
If you think there is an error on your statement, write to us at St. Mary’s
Bank Credit Card Services, P.O. Box 84032, Columbus, Georgia
31908-4032 as soon as possible. In your letter, give us the following
information:
• Account information: Your name and Credit Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
If possible, please include in your correspondence the date of the
transaction and the reference number for the charge.
What will happen after we receive your letter.
When we receive you letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on the amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will happen:

10

• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.
Your rights if you are dissatisfied with your credit card purchases.
If you are dissatisfied with the goods or services that you have
purchased with your Credit Card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at St. Mary’s Bank Credit Card
Services, P.O. Box 84032, Columbus, Georgia 31908-4032.
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.

11

